<html>
<title> - STREAMLINING FEDERAL EDUCATION AND WORKFORCE PROGRAMS: A LOOK AT THE GAO REPORT ON GOVERNMENT WASTE</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                   STREAMLINING FEDERAL EDUCATION AND
                   WORKFORCE PROGRAMS: A LOOK AT THE
                     GAO REPORT ON GOVERNMENT WASTE

=======================================================================



                                HEARING

                               before the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, APRIL 6, 2011

                               __________

                           Serial No. 112-16

                               __________

  Printed for the use of the Committee on Education and the Workforce



                   Available via the World Wide Web:
      http://www.gpoaccess.gov/congress/house/education/index.html
                                   or
            Committee address: http://edworkforce.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
65-499                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Thomas E. Petri, Wisconsin           George Miller, California,
Howard P. ``Buck'' McKeon,             Senior Democratic Member
    California                       Dale E. Kildee, Michigan
Judy Biggert, Illinois               Donald M. Payne, New Jersey
Todd Russell Platts, Pennsylvania    Robert E. Andrews, New Jersey
Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Duncan Hunter, California            Lynn C. Woolsey, California
David P. Roe, Tennessee              Ruben Hinojosa, Texas
Glenn Thompson, Pennsylvania         Carolyn McCarthy, New York
Tim Walberg, Michigan                John F. Tierney, Massachusetts
Scott DesJarlais, Tennessee          Dennis J. Kucinich, Ohio
Richard L. Hanna, New York           David Wu, Oregon
Todd Rokita, Indiana                 Rush D. Holt, New Jersey
Larry Bucshon, Indiana               Susan A. Davis, California
Trey Gowdy, South Carolina           Raul M. Grijalva, Arizona
Lou Barletta, Pennsylvania           Timothy H. Bishop, New York
Kristi L. Noem, South Dakota         David Loebsack, Iowa
Martha Roby, Alabama                 Mazie K. Hirono, Hawaii
Joseph J. Heck, Nevada
Dennis A. Ross, Florida
Mike Kelly, Pennsylvania
[Vacant]

                      Barrett Karr, Staff Director
                 Jody Calemine, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 6, 2011....................................     1

Statement of Members:
    Kline, Hon. John, Chairman, Committee on Education and the 
      Workforce..................................................     1
        Prepared statement of....................................     3
        Additional submission: Letter, dated April 22, 2011, from 
          Hon. Hilda L. Solis, Secretary, U.S. Department of 
          Labor..................................................    57
    Miller, Hon. George, senior Democratic member, Committee on 
      Education and the Workforce................................     4
        Prepared statement of....................................     5
    Rokita, Hon. Todd, a Representative in Congress from the 
      State of Indiana, prepared statement of....................    52

Statement of Witnesses:
    Dodaro, Hon. Gene, Comptroller General, U.S. Government 
      Accountability Office......................................     6
        Prepared statement of....................................     9
        Additional submissions:
            ``Employment and Training Programs That Have Shown 
              Positive Results''.................................    53
            ``Teacher Quality Programs That Have Shown Positive 
              Results''..........................................    54
            Table: ``Federal Programs That Support Teacher 
              Quality and Allow Funds to be Used for Activities 
              Aimed at Improving the Performance of School 
              Administrators''...................................    56


                   STREAMLINING FEDERAL EDUCATION AND
                   WORKFORCE PROGRAMS: A LOOK AT THE


                     GAO REPORT ON GOVERNMENT WASTE

                              ----------                              


                        Wednesday, April 6, 2011

                     U.S. House of Representatives

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 10:00 a.m., in room 
2175, Rayburn House Office Building, Hon. John Kline [Chairman 
of the Committee] presiding.
    Present: Representatives Kline, Petri, Foxx, Roe, Thompson, 
Walberg, DesJarlais, Hanna, Bucshon, Gowdy, Barletta, Noem, 
Roby, Heck, Ross, Kelly, Miller, Kildee, Payne, Scott, Woolsey, 
Tierney, Kucinich, and Wu.
    Staff present: Katherine Bathgate, Press Assistant/New 
Media Coordinator; James Bergeron, Director of Education and 
Human Services Policy; Kirk Boyle, General Counsel; Casey 
Buboltz, Coalitions and Member Services Coordinator; Heather 
Couri, Deputy Director of Education and Human Services Policy; 
Daniela Garcia, Professional Staff Member; Ben Hoog, 
Legislative Assistant; Barrett Karr, Staff Director; Brian 
Melnyk, Legislative Assistant; Mandy Schaumburg, Education and 
Human Services Oversight Counsel; Alex Sollberger, 
Communications Director; Linda Stevens, Chief Clerk/Assistant 
to the General Counsel; Alissa Strawcutter, Deputy Clerk; 
Tylease Alli, Minority Hearing Clerk; Jody Calemine, Minority 
Staff Director; Jamie Fasteau, Minority Deputy Director of 
Education Policy; Sophia Kim, Minority Legislative Fellow, 
Education; Brian Levin, Minority New Media Press Assistant; 
Jerrica Mathis, Minority Legislative Fellow, Labor; Celine 
McNicholas, Minority Labor Counsel; Megan O'Reilly, Minority 
General Counsel; Julie Peller, Minority Deputy Staff Director; 
Meredith Regine, Labor Minority Policy Associate; Alexandria 
Ruiz, Minority Administrative Assistant to Director of 
Education Policy; Melissa Salmanowitz, Minority Communications 
Director for Education; Minority Press Secretary; Laura 
Schifter, Minority Senior Education and Disablity Advisor; 
Michele Varnhagen, Minority Chief Policy Advisor and Labor 
Policy Director; and Michael Zola, Minority Chief Investigative 
Counsel.
    Chairman Kline [presiding]. A quorum being present, the 
Committee will come to order. Well, good morning and welcome.
    I would like to thank the U.S. Comptroller General, Mr. 
Dodaro, for joining us today as we shed light on wasteful 
federal government spending. Your time is valuable and we 
appreciate the opportunity to get your thoughts on duplicative 
teacher and workforce training programs.
    At a time when our nation faces an historic fiscal crisis 
we must make a concerted effort to reduce federal spending. A 
necessary step in this process is to eliminate and streamline 
federal programs. Now more than ever it is critical to ensure 
taxpayer dollars are spent wisely.
    Thanks to the work of Senator Tom Coburn, of Oklahoma, and 
the Government Accountability Office, we have recently learned 
of massive amounts of waste and duplication within federal 
programs. According to the March 2011 report, billions of 
dollars are being squandered on redundant programs. As our 
nation continues to borrow 40 cents of every dollar spent, this 
muse of tax--misuse of taxpayer funds is unacceptable.
    This committee is particularly concerned about the 82 
individual teacher quality programs and the 47 separate job 
training programs detailed in the report.
    We all recognize the importance of placing more qualified 
and better prepared individuals in our schools and workplaces. 
This will help provide our children with a quality education 
and keep our nation competitive in the global economy. But the 
magnitude of duplication and overlap among the programs listed 
in the GAO report is counterproductive to the achievement of 
these fundamental goals.
    Of the 82 distinct programs focused on improving teacher 
quality, several aren't administered by the Department of 
Education. Ten separate agencies are responsible for overseeing 
various teacher quality programs, including the Departments of 
Defense, Interior, State, Agriculture, and Energy.
    In 2009, $4 billion in taxpayer funds was dedicated to 
improving teacher quality. Instead of instituting a government-
wide strategy to ensure these funds were being used wisely and 
effectively, communication between agencies was limited and 
programs continued to be implemented without coordination or 
concern about existing initiatives. As a result of this 
fragmented process, taxpayer dollars were wasted and student 
achievement saw little improvement.
    Nine federal agencies, including the Departments of Labor, 
Education, Health and Human Services, Interior, Agriculture, 
Defense, Justice, and Veterans Affairs, are currently 
responsible for implementing 47 different employment and job 
training programs that cost the taxpayers approximately $18 
billion in 2009. Forty-four of the 47 programs overlap with at 
least one other program.
    In fact, many of the programs provide the same services to 
the same populations through separate administrative 
structures. This lack of coordination in workforce training 
programs and teacher quality programs is irresponsible, 
wasteful, and careless.
    We must act now to return fiscal sanity to Washington. This 
report illustrates considerable opportunities to cut federal 
spending and consolidate wasteful government programs. If we 
allow taxpayer funds to be wasted and federal spending to 
continue unchecked we are putting our children in a more 
precarious position and risking the future stability of our 
country.
    We all have a responsibility to eliminate waste, fraud, and 
abuse of taxpayer dollars and make the tough choices necessary 
to streamline federal programs within this committee's 
jurisdiction. A failure to act when confronted with such 
compelling evidence of waste would be indefensible.
    And again, I would like to thank the Comptroller General 
for joining us.
    And I will now recognize my distinguished colleague, George 
Miller, the Senior Democratic Member of the Committee, for his 
opening remarks.
    [The statement of Chairman Kline follows:]

            Prepared Statement of Hon. John Kline, Chairman,
                Committee on Education and the Workforce

    A quorum being present, the committee will come to order.
    Good morning and welcome. I'd like to thank the U.S. Comptroller 
General, Mr. Gene Dodaro (DOE-DAR-OH), for joining us today as we shed 
light on wasteful federal government spending. Your time is valuable 
and we appreciate the opportunity to get your thoughts on duplicative 
teacher and workforce training programs.
    At a time when our nation faces a historic fiscal crisis, we must 
make a concerted effort to reduce federal spending. A necessary step in 
this process is to eliminate and streamline federal programs. Now more 
than ever, it is critical to ensure taxpayer dollars are spent wisely.
    Thanks to the work of Senator Tom Coburn of Oklahoma and the 
Government Accountability Office, we have recently learned of massive 
amounts of waste and duplication within federal programs. According to 
the March 2011 report, billions of dollars are being squandered on 
redundant programs. As our nation continues to borrow 40 cents of every 
dollar spent, this misuse of taxpayer funds is unacceptable.
    This committee is particularly concerned about the 82 individual 
teacher quality programs and the 47 separate job training programs 
detailed in the report. We all recognize the importance of placing more 
qualified and better prepared individuals in our schools and 
workplaces. This will help provide our children with a quality 
education and keep our nation competitive in the global economy. But 
the magnitude of duplication and overlap among the programs listed in 
the GAO report is counterproductive to the achievement of these 
fundamental goals.
    Of the 82 distinct programs focused on improving teacher quality, 
several aren't administered by the Department of Education. Ten 
separate agencies are responsible for overseeing various teacher 
quality programs, including the Departments of Defense, Interior, 
State, Agriculture, and Energy. In 2009, $4 billion in taxpayer funds 
was dedicated to improving teacher quality. Instead of instituting a 
government-wide strategy to ensure these funds were being used wisely 
and effectively, communication between agencies was limited and 
programs continued to be implemented without coordination or concern 
about existing initiatives. As a result of this fragmented process, 
taxpayer dollars were wasted and student achievement saw little 
improvement.
    Nine federal agencies, including the Departments of Labor, 
Education, Health and Human Services, Interior, Agriculture, Defense, 
Justice and Veterans Affairs, are currently responsible for 
implementing 47 different employment and job training programs that 
cost the taxpayers approximately $18 billion in 2009. Forty-four of the 
47 programs overlap with at least one other program. In fact, many of 
the programs provide the same services to the same populations through 
separate administrative structures. This lack of coordination--in 
workforce training programs and teacher quality programs--is 
irresponsible, wasteful, and careless.
    We must act now to return fiscal sanity to Washington, D.C. This 
report illustrates considerable opportunities to cut federal spending 
and consolidate wasteful government programs. If we allow taxpayer 
funds to be wasted and federal spending to continue unchecked, we are 
putting our children in a more precarious position and risking the 
future stability of our country.
    We all have a responsibility to eliminate waste, fraud, and abuse 
of taxpayer dollars and make the tough choices necessary to streamline 
federal programs within this committee's jurisdiction. A failure to act 
when confronted with such compelling evidence of waste would be 
indefensible.
    Again, I'd like to thank Mr. Dodaro (DOE-DAR-OH) for joining us, 
and I will now recognize my distinguished colleague George Miller, the 
senior Democratic member of the committee, for his opening remarks.
                                 ______
                                 
    Mr. Miller. Thank you. Thank you, Mr. Chairman, for this 
hearing.
    And I want to also welcome Comptroller General Dodaro, 
again, to the committee.
    Witnesses from the General Accountability Office aren't new 
to this committee. The GAO has completed some incredible work 
on behalf of this committee.
    Your undercover investigations 2 years ago showed us the 
Bush administration failed to respond to serious allegations of 
waste and child labor violations. This investigation resulted 
in the hiring of 200 new investigators and ordering the 
retraining of current investigators.
    Your work about the residential boot camps and the abuse of 
special needs children under the guise of discipline garnered 
national attention and led to legislation that passed this 
committee and the House with bipartisan support.
    Today I am reintroducing that bill in this Congress. In the 
years since the bill has passed hundreds of kids have continued 
to be abused and we can prevent those abuses by setting minimum 
safety standards among the states.
    Your food safety investigations identified major gaps 
within USDA that led to administrative changes to protect the 
food of our students eating the school lunch and nutrition 
programs. In these prior investigations GAO reports told how a 
great--a great deal about what the need is on the ground and 
where the avenues for action might be.
    The report before us today seems to be of a different 
nature. There is absolutely a need to identify, reduce, and 
eliminate government waste. It is clear from reading the 
testimony and related reports that when it comes to the issues 
within the jurisdiction of this committee, the relevant 
agencies recognize the need to address many of the issues 
identified by the GAO over the years.
    On the education side, the Department of Education has 
taken proactive action to better align programs and consolidate 
where possible. They have established a working group across 
the agencies to better collaborate and propose to consolidate 
programming in a number of areas, including consolidating 38 
teacher training programs into 11.
    With Secretary Duncan at the helm, the department has 
identified areas where the consolidation makes both--makes 
sense both for the taxpayer and the students, teachers, and 
schools. But as the GAO noticed in the past, Congress must take 
action to address program realignment, which I hope we will 
have a chance to do so with the reauthorization of the 
Elementary and Secondary Education Act this year.
    In regards to job training, GAO found that there are 47 
programs that spend $18 billion to provide training services. 
What I would like to hear from GAO's view on--I would like to 
hear GAO's views on how many individuals receive effective job 
training, how many individuals have been denied service, and 
what specific savings and program improvements can be achieved 
by consolidating administrative structures.
    While the report before us today has already been the 
subject of congressional hearings and discussion, I hope that 
today's hearing can somehow move us forward in the 
consideration of the items I have just mentioned. If Congress 
is to act and to address the issues of government waste then 
there is very specific detailed information that we need to 
know about the effectiveness of the programs you reviewed.
    If, on the other hand, the information we hear today is 
limited to what has already been reported, then the hearing 
that the majority has called unfortunately may be redundant 
and, in fact, duplicative of what already has taken place in 
the Congress. And with that, I yield back the balance of my 
time.
    [The statement of Mr. Miller follows:]

  Prepared Statement of Hon. George Miller, Senior Democratic Member, 
                Committee on Education and the Workforce

    Good morning and welcome Comptroller General Dodaro.
    Witnesses from the Government Accountability Office aren't new to 
this committee.
    GAO has completed some incredible work on behalf of this committee.
    Your undercover investigation two years ago showed us how the Bush 
administration failed to respond to serious allegations of wage theft 
and child labor law violations.
    This investigation resulted in the hiring of 200 new investigators 
and ordering the retraining of current investigators.
    Your work about residential boot camps and abuse of special need 
children under the guise of discipline garnered national attention and 
lead to legislation that passed this Committee and the House with 
bipartisan support.
    Today, I am reintroducing that bill in this Congress. In the year 
since the bill passed this House, hundreds of kids have been abused and 
we can prevent those abuses by setting minimum safety standards.
    Your food safety investigations identified major gaps within USDA 
that led to administrative changes to protect the food our students eat 
in school.
    In these prior investigations, GAO reports told us a great deal 
about what the need is on the ground and where the avenues for action 
might be.
    The report before us today is of a different nature.
    There is absolutely a need to identify, reduce and eliminate 
government waste.
    It is clear from reading the testimony and related reports that 
when it comes to the issues within the jurisdiction of this committee, 
the relevant agencies recognize the need to address many of the issues 
identified by GAO over the years.
    On the education side, the Department of Education has taken 
proactive action to better align programs and consolidate where 
possible.
    They've established working groups across agencies to better 
collaborate and have proposed to consolidate programming in a number of 
areas, including consolidating 38 teacher training programs to 11.
    With Secretary Duncan at the helm, the Department has identified 
areas where consolidations make sense both for the taxpayer and for 
students, teachers and schools.
    But as GAO has noted in the past, Congress must take action to 
address program alignment which I hope we will have a chance to address 
through the reauthorization of the Elementary and Secondary Education 
Act this year.
    In regards to job training, GAO found that there are 47 programs 
that spent $18 billion to provide job training services.
    I'd like to hear GAOs views on how many individuals received 
effective job training, how many individuals have been denied services, 
and what specific savings and program improvements can be achieved by 
consolidating administrative structures.
    While the report before us today has already been the subject of 
congressional hearings and discussions, I hope today's hearing could 
somehow move us forward.
    If Congress is to act to address issues of government waste, there 
is very specific, detailed information that we need to know about the 
effectiveness of the programs you reviewed.
    If, on the other hand, the information we hear today is limited to 
what has already been reported, then this hearing that the majority has 
called is, unfortunately, just more government waste.
                                 ______
                                 
    Chairman Kline. I thank the gentleman.
    Pursuant to Committee Rule 7(c), all committee members will 
be permitted to submit written statements to be included in the 
permanent hearing record. And without objection, the hearing 
record will remain open for 14 days to allow statements, 
questions for the record, and other extraneous material 
referenced during the hearing to be submitted in the official 
hearing record.
    It is now my pleasure to introduce our distinguished 
witness. The Honorable Gene Dodaro became the eight Comptroller 
General of the United States and head of the U.S. Government 
Accountability Office on December 22, 2010, when he was 
confirmed by the U.S. Senate.
    As Comptroller General, Mr. Dodaro helps oversee the 
development and issuance of hundreds of reports and testimonies 
each year to various committees and individuals Members of 
Congress. His longstanding career at GAO dates back more than 
30 years. Prior to serving as the Comptroller General, he 
served as the Chief Operating Officer for 9 years, assisting 
the Comptroller General and providing direction and vision for 
GAO's diverse, multidisciplinary workforce.
    I now recognize the Comptroller General.

   STATEMENT OF HON. GENE DODARO, COMPTROLLER GENERAL, U.S. 
                GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Dodaro. Thank you very much, Mr. Chairman, Ranking 
Member Miller, members of the committee. I am very pleased to 
be here today to discuss our recent report on opportunities to 
reduce potential duplication in federal programs, reduce costs, 
and to enhance revenues.
    This report is the first of a statutorily required mandate 
for GAO to produce a report each year on these topics. In this 
first report we identified 34 areas that we believe are a 
subject of either program fragmentation, overlap, or potential 
duplication, and they range across the spectrum of the federal 
government's activities from defense, to energy, to economic 
development programs, to transportation programs, to those that 
you already mentioned in your opening statements, Mr. Chairman 
and Ranking Member Miller, today on education and employment 
and training.
    In addition to those 34 programs we identify 47 other 
opportunities to reduce costs and to enhance revenues, 
particularly to address a yawning tax gap of $290 billion, 
which is estimated at this point in time. So we cover the full 
range of the federal government's activities.
    The 81 areas offer opportunities to save billions of 
dollars, and importantly, also, make programs more effective 
and efficient. And the objective of the review was to do both.
    Now, of special interest today are two of the 81 areas on 
teacher quality and the employment and training programs. With 
regard to the teacher quality programs, as mentioned, we 
identified 82 distinct teach quality programs administered by 
10 states.
    Importantly, however, we found there was no government-wide 
strategy to reduce fragmentation and overlap and potential 
duplication in those programs. And this fragmentation has led 
to limitations on agencies' abilities to comprehensively tackle 
this issue, to evaluate the individual programs to determine 
what is working effectively and what is not working effectively 
in the programs, and it adds to administrative burdens not only 
at the federal level but at the state and local level as well.
    As you mentioned, Ranking Member Miller, the Education 
Department has already put forth a proposal to consolidate 38 
of these areas into 11 areas, and we think this is a good 
starting point for the discussions and that Congress should use 
the opportunities afforded through its legislative vehicles, 
Mr. Chairman, as you approach reauthorization of the Elementary 
and Secondary Education Act. And we would be happy to support 
the committee in that endeavor.
    Now, with regard to the employment and training programs, 
44 of the 47 programs overlap, at least providing the same 
service to the same types of populations over time. Now, 
importantly, in terms of the question about what do we know 
about the effectiveness of these programs, 23 of these programs 
have not been subject to any evaluation since 2004. So there is 
limited information and a lot of our recommendations in the 
past have been encouraging the Department of Labor to evaluate 
these programs, and we can talk more about that in the Q&A 
session.
    We think at a minimum there are opportunities to gain 
administrative efficiencies in dealing with these programs, but 
the federal departments and agencies have to move forward with 
some of our recommendations about determining what is being 
experimented with at the state and local level, what is working 
well, disseminating some of these best practices, and 
importantly, trying to figure out what incentives there are or 
could be to incentivize the state and local governments to more 
effectively come up with pilots to administer these programs. 
We think this is very important, and one of the departments 
believes there are some legislative limitations on their 
abilities to work with agencies in the TANF program, and we 
think that is something that the Congress could remedy.
    Now, there are activities that, in the short term, can be 
dealt with; and also in the employment training area the 
administration has put forth a proposal to consolidate nine of 
the programs into three and to shift another program from Labor 
to HHS, and so we think those merit congressional attention as 
well.
    Now, while there are a lot of opportunities in the short 
term to deal with these two areas, in the longer term 
legislation the Congress passed last year in the Government 
Performance Results Act Modernization provides additional 
legislative tools to help deal with these issues.
    It requires, for example, OMB to set a specific number of 
crosscutting goals and requiring greater coordination across 
agencies and areas. It requires individual agencies to identify 
what they are doing to collaborate and coordinate with other 
agencies in related program efforts. It requires quarterly 
reviews with performance measures to be posted on public Web 
sites. And importantly, it requires the executive agencies to 
consult with the Congress in the development of performance 
measures and in determining what the priorities would be for 
these program areas.
    So there is a heavy role contemplated and increased 
requirements for consultation with the Congress, which I think 
offer important opportunities.
    I appreciate the opportunity to be here today, Mr. 
Chairman, to discuss these issues. GAO stands ready to help the 
Congress deal with the enormous fiscal pressures that are upon 
us right now and to help make decisions in a careful, 
deliberative manner, and these areas require careful 
consideration, and I am sure this committee will give.
    And so I would be happy to answer questions at this point. 
Thank you very much.
    [The statement of Mr. Dodaro follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                ------                                

    Chairman Kline. Thank you, sir. Again, thank you for being 
here and for your time and the hard work that the GAO does.
    And I am keenly mindful of the ranking member's comments 
about we don't want this hearing to be either redundant or 
duplicative. We have actions that we need to take. We have been 
discussing here, in fact, for some years whether--whichever 
side was occupying this chair--that we need to address some of 
this duplication, some of the problems, some of the shortfalls 
in WIA and other areas.
    Your report just sort of put a double underscore over the 
scale of the problem that has been sitting out there. And as 
you know, we have some--it is not only a question of nine or 10 
agencies; it is also a question of, sometimes, nine or 10 
committees here in Congress, and we have to work that out. And 
I am hoping that some of the questions and discussion that we 
go through here today can kind of help us sort that out, and I 
think it is part of my job to work with the leadership and 
other chairmen to see if we can sort out some of these 
jurisdictional challenges here in Congress.
    You mentioned some of the things that the administration is 
doing; Mr. Miller mentioned some of the things that Secretary 
Duncan is doing. But you also said, or I certainly inferred 
from your testimony, that there are some legislative actions 
that should be taken.
    Can you expand that a little bit? What are the things that 
you are thinking about, looking at, that the Congress should be 
taking up?
    Mr. Dodaro. First, there are reauthorizations that are upon 
you in both of these programs in the education area as well as 
employment training activities, and the reauthorization of 
Workforce Investment Act. So I do think those reauthorizations 
provide really pivotal, timely opportunities to reassess what 
the federal role should be.
    A lot of these programs have developed over a period of 
time, and it is a good opportunity to take a step back to try 
to determine what is working well, what isn't, to set 
priorities, and for the Congress to be clear on what the 
desired outcomes it would like to achieve in these programs, 
and to also potentially use legislative vehicles to require 
coordination across federal government's programs and 
activities.
    The Congress did that recently with the Competes America 
Act in the areas dealing with the scientific technical 
engineering and math programs requiring a strategic plan, 
requiring a role of OMB and the White House Office of Science 
and Technology Policy. So I think the Congress can use its 
legislative platform to make sure that there is more 
coordination across the executive branch and to get clearer 
reports from the executive branch activities.
    The other legislative change that we would suggest the 
Congress consider is in the employment and training area. The 
Department of Health and Human Services has indicated that 
there are legislative barriers to them in the TANF program, the 
Temporary Assistance to Needy Families program, in order to 
allow them to deal properly with incentives to work with other 
program activities. So we think that makes sense.
    Also, I think this is also a very important opportunity for 
the Congress to get input from the state and local level as 
well as it considers legislation. Most of these programs are 
administered at the state and local level. They are under 
enormous fiscal pressures as well.
    We have done long-range simulations of the collective 
fiscal path of the state and local sector and it is on the same 
difficult long-range unsustainable path that the federal 
government is on. And so trying to work with them to give them 
incentives to streamline administrative operations to provide 
more efficient delivery services I think would be enormously 
helpful at all levels of government.
    Chairman Kline. Thank you.
    Mr. Miller?
    Mr. Miller. Thank you.
    In the media advisory--the majority media advisory for 
today's hearing--it says that the GAO has identified a number 
of programs aimed at improving teacher quality and it says that 
GAO has identified a number of employment and training programs 
in the same vein. And I think that is accurate.
    However, the advisory asserts that GAO has found, and I 
quote--``Many of these programs are managed by multiple 
agencies and aimed at the same beneficiaries, causing 
unnecessary duplication and wasted tax dollars.'' I don't see 
that in your report, and I do not see in the evidence of your 
testimony that that is the case of showing unnecessary 
duplication or identifying specific tax dollars wasted.
    In fact, where you discuss the teacher quality programs at 
the top of page 6 you actually say, ``Several factors make it 
difficult to determine whether there is unnecessary duplication 
in these programs,'' and you go on to say that, ``when similar 
teacher quality activities are funded through different 
programs and delivered by different entities, some overlap''--
the word you use, overlap can be unintentional but it is not 
necessarily wasteful. And I think that is a difference from the 
cast of the advisory on this hearing.
    Later in your testimony, with regard to job training and 
employment programs, you say on page 8 that the extent to which 
individuals receive the same services from job training 
programs is unknown. More than 15 times throughout your 
testimony you include the title and the use of phrase 
``potential duplication,'' but you don't find the massive 
duplication. I recognize, and we have been very concerned on 
this committee, about who is offering--in the Competes Act we 
try to get rid of some of the duplication and let the National 
Science Foundation deal with science and STEM.
    But let me ask you in the time remaining, as quickly as I 
can, did you--in this GAO report did you identify specific 
examples of programmatic duplication--not administrative 
duplication, but specific examples of programmatic duplication?
    Mr. Dodaro. What we did identify were fragmentation and 
overlap, which we believe can be harbingers of potential 
duplication----
    Mr. Miller. Okay. I understand. But----
    Mr. Dodaro [continuing]. But for these two program areas we 
did not identify any examples of duplication.
    Mr. Miller. Right. And I think that your response comports 
with what is on page 6, where you talk about the overlap, and 
some overlap can occur unintentionally, but again, it is not 
necessarily wasteful----
    Mr. Dodaro. Right.
    Mr. Miller [continuing]. In terms of tax dollars.
    Did you identify and calculate specific cost savings to be 
achieved by consolidating administrative structure?
    Mr. Dodaro. We believe that it is Congress's prerogative to 
decide the priorities on these programs, so we did not provide 
specific recommendations on how to address this area. What our 
main recommendation was is that to get ahead of this, to make 
sure there isn't----
    Mr. Miller. No, I understand that. But in your report where 
you find overlap and whatever you have not assigned a cost or 
concern about what that would be----
    Mr. Dodaro. No. We have pointed out some limitations in the 
ability to be able to do that because----
    Mr. Miller. You also mentioned that some states have done 
this and you say they said they saved a lot of money, and yet--
but they couldn't provide you any dollar amounts.
    Mr. Dodaro. Not at this time. And this is why we think the 
federal agencies should have a stronger role in developing that 
information.
    Mr. Miller. So we don't know whether they saved or didn't 
save. They said they saved, and I appreciate that, but--okay.
    Mr. Dodaro. And I think given their situation, I mean they 
are looking for ways to reduce costs.
    Mr. Miller. I understand.
    Did you assess the effectiveness of the programs identified 
in the report?
    Mr. Dodaro. We had not been asked to assess the 
effectiveness, and we think this is an important area where the 
agencies have not stepped up to fulfill their responsibilities 
to evaluate the effectiveness of the programs.
    Mr. Miller. Are you planning on doing effectiveness--
looking at these teacher programs or the training programs?
    Mr. Dodaro. Well, I think first and foremost our effort is 
making sure that the agencies fulfill their responsibilities to 
do these effectiveness studies. Like, for example, in the 
workforce investment area the 1998 legislation mandated that 
they do an impact study and that study is way late and it is 
not due to be completed until 2015, almost 17 years after. So--
--
    Mr. Miller. I guess my concern is here is if the 
recommendation is--and the department, at least in education, 
is heading toward consolidation and made these recommendations, 
when you are doing consolidation I assume what you would take 
would be the most effective programs and try to provide for 
that consolidation. And therefore, you would somehow wring the 
savings out of here. But we really don't have those 
recommendations from this report.
    Mr. Dodaro. Yes. There are some programs--and I would be 
happy to provide for the record--that have had evaluations, 
that have shown positive results that could be built off of, 
and so we will provide that for the record.
    But in the other--many other areas' programs aren't 
evaluated so it is really hard to determine at this point. You 
know, that is why we think this Government Performance and 
Modernization Act requires agencies to do more rigorous 
evaluations, to discuss the quality of the data, to provide 
publicly available results to help not only the Congress but 
the public understand what is effective in these programs----
    Mr. Miller. That would be a methodical----
    Mr. Dodaro. Right.
    Mr. Miller [continuing]. Reevaluation or periodic 
effectiveness evaluation of the programs that would be required 
by the act?
    Mr. Dodaro. Yes.
    Mr. Miller. Okay. Thank you.
    Chairman Kline. Thank the gentleman.
    Dr. Foxx, you are recognized.
    Mrs. Foxx. Thank you very much, Mr. Chairman.
    And thank you for being here, Mr. Dodaro. I appreciate it.
    I am very interested in the comments that you made about--
particularly, it has been 17 years since the law was passed to 
create evaluation and some effectiveness. I think the American 
public would find that absolutely appalling that here we 
justify paying high wages to the people who work in the federal 
government based on the fact that they have degrees and should 
be very highly skilled, and yet they can't come across with an 
evaluation program in 17 years. I think something is really 
lacking.
    I am really curious, also, about some of the things that 
you have talked about. I wonder if we could focus a little bit 
more on the evaluation aspect. I think there is a great irony 
here that we are debating No Child Left Behind or the ESEA 
reauthorization and the concerns that local school systems have 
on how they have been evaluated.
    And I think perhaps we ought to bring in a group of 
teachers and principals and let them set up the evaluation 
programs for the Department of Education. Since the Department 
of Education has been able, it seems, to design extraordinarily 
intricate evaluation programs for the school systems and yet 
have failed completely to set up evaluation programs for 
themselves.
    I noted in the information we were given that in 2003 
Congress attempted to streamline federal literacy efforts by 
establishing a commission to look at how to eliminate areas of 
overlap, and that commission found absolutely no areas of 
overlap. So it looks like we can't do evaluation from within.
    Did you come across, in your work, any evaluative systems 
that you thought were really good and that should--or people 
from outside or inside who could then establish models for 
evaluations? Did you find any of those?
    Mr. Dodaro. Yes. There have been some evaluations that have 
been done in the teacher quality area and in the employment and 
training area, and I would be happy to provide, you know, that 
for the record.
    You know, one of the challenges here is that of the 82 
programs, 53 of them are relatively small programs, making it 
difficult to evaluate it. And I think that is part of the 
rationale for the Education Department's consolidation efforts, 
to be able to have programs large enough, you know, 
particularly given the fact that the federal government's 
efforts are supplemental to what is already being spent at the 
state and local level, and that is another complicating factor 
in the evaluations.
    I think the Congress' oversight activities could be 
enhanced in these areas to make sure that the agencies do do 
the evaluations that are scheduled to be done and that are 
critically important to make sure that the Congress gets good 
information to make informed decisions.
    Mrs. Foxx. I was also curious about the comment you made 
about the 38 programs being collapsed into 11 programs. When we 
heard from Secretary Duncan he talked about that also, but I 
asked him the question, because we have been informed by staff 
that there will be no savings as a result of consolidating 
those programs, and I think there has to be some emphasis 
placed on savings.
    You didn't mention that in your comments, but did you find 
that we could have some savings as a result of that? You 
mentioned administratively, but how about in other areas?
    Mr. Dodaro. Right. Well, first of all, I would point out 
that two teacher quality programs of the ones we have mentioned 
Congress has already eliminated in these continuing resolutions 
that it has passed to date, so there have been two programs 
that have been eliminated. Obviously savings attended with 
those.
    We haven't formally evaluated the department's 
consolidation effort and what is to be gained from savings. We 
would be happy to look at that and provide our thoughts to the 
committee.
    Then there are 20 remaining programs within the department, 
which I think in the reauthorization program and the teacher 
quality area questions could be put forward to the department 
to determine why those programs weren't consolidated, as well 
and what the opportunities are there and whether there are 
evaluations there.
    So I think there is a systematic way to look at the 60 of 
the 82 programs that are within the Department of Education's 
purview, and then there are questions of the other programs 
outside the department that could then be pursued as a line of 
questioning that would be, I think, very informative to the 
reauthorization deliberations.
    Mrs. Foxx. Thank you, Mr. Chairman.
    Chairman Kline. I thank the gentlelady.
    Mr. Kildee, you are recognized.
    Mr. Kildee. Thank you, Mr. Chairman.
    Mr. Dodaro, you mentioned there were 82 teacher quality 
programs. Is the problem the number of the substantive 
redundancy in many of these programs?
    Mr. Dodaro. I think the issue is both, in terms of the 
number and the size of some of these programs, as I mentioned, 
are relatively small. In some programs, Congressman, what we 
found was that it is an allowable activity among many 
activities, and then there are specific smaller targeted 
programs intended to get at different particular issues.
    So because of that, it is hard to plan, you know, sort of a 
comprehensive approach to the program, both at the federal 
level and at the state and local level. So it is both the 
number, I think, the size of the programs, and the specific 
areas that involve some degree of overlap that need to be 
rationalized.
    And I think they are all well-intended. The question is, 
what is the most efficient way to do it? And because there 
aren't evaluations it is difficult to provide information from 
the Education Department to the state and local level of what 
techniques have worked well, what should be replicated. And so 
I think that is limiting the--ultimately achieving the goals of 
all these programs.
    Mr. Kildee. If they are allowable the agency or the state 
could do away with those programs themselves; if they are 
mandated then we would have to take action on that.
    Mr. Dodaro. Yes. Well, a lot of them are competitive grants 
too. Where people apply for education determines that. So there 
is a cost associated with filling out the applications, 
reviewing them, that needs to be taken into account as well.
    Mr. Kildee. So these 82 are spread through various levels 
of government, various states----
    Mr. Dodaro. Yes.
    Mr. Kildee [continuing]. So the entire----
    Mr. Dodaro. Yes.
    Mr. Kildee [continuing]. Country then.
    You said that some of these programs could be shifted from 
Labor to HHS. How would that help? Are some of the programs 
that similar that they could carry out their--both their 
missions?
    Mr. Dodaro. Yes. The administration's proposal in the 
employment and training area is to shift one program dealing 
with senior services to the Department of HHS, which has other 
related programs dealing with that population. So it would 
allow them to try to provide a more, you know, comprehensive 
approach in dealing with that part of our population.
    Mr. Kildee. Thank you very much. Thank you for your good 
work.
    Mr. Dodaro. Thank you.
    Chairman Kline. Thank the gentelman.
    Dr. Roe, you are recognized.
    Mr. Roe. Thank you.
    I want to thank you for this report. I had a chance to read 
in detail and you all did a great job of really clarifying for 
me where all these programs were. And your staff and you are to 
be commended for that. It is very enlightening for me to see 
what this bowl of spaghetti looked like.
    And obviously it is complicated when you have this many 
programs. And just to bring up a couple here, both in workforce 
and in education: In 2010 the GAO reported there were 151 
different federal K through 12 programs in early educational 
programs. More than half of these programs have not been 
evaluated, including eight of the 20 largest programs, which 
together accounted for about 90 percent of the total funding of 
these programs.
    I can't believe that, that we haven't looked at it in some 
detail to find out if they work. There is no business in the 
world that would spend the kind of money we are spending and 
not find out if it is effective.
    And I think your points you just made were the number of 
programs, the size, and then to evaluate the effectiveness of 
it--I mean, that is our fiduciary responsibility. And to have 
those tools we have to have the--we have to have the 
information about whether they are working or not.
    Mr. Dodaro. That is exactly right. I mean, one of the laws 
that was passed in 1993 was the original Government Performance 
and Results Act, which was--required agencies to set goals, to 
provide measurements on that. And that has produced some 
additional impetus but it really hasn't produced systematic 
program evaluations of what has worked.
    That is why I mentioned this Modernization Act that was 
passed last year. And, you know, my belief is it won't work 
effectively without the Congress' oversight role and 
participation as a stakeholder.
    So I think it is a great opportunity that Congress should 
seize. Hold the agencies accountable. It fixes more 
accountability with a performance officer in the agencies, and 
I think it is a--it could be a sort of a game changing 
paradigm.
    Mr. Roe. I don't think you all looked at this specifically, 
but how much--when you have this many duplicative programs how 
much cost is there in just the administration and how much of 
it actually gets to the classroom, or to the teacher, or 
whatever? I wonder if there is any way to know how much we are 
spending, because we know how much charitable organizations--
and I don't donate to them when 50 percent of their money goes 
to administration, and I don't think taxpayers ought to be 
donating to something where it's not going to the classroom and 
being effective.
    Mr. Dodaro. It is very difficult to obtain that information 
both at the federal level and at the state and local level. I 
think the only two areas in our report where we identify 
clearly administrative costs associated with the employment and 
training programs are in the employment services area and the 
Workforce Investment Act Adult services, and I think we--those 
administrative costs are between--I think they are over $150 
million just for those two programs.
    Mr. Roe. That is a lot. And the other one--another point 
here in workforce, and you mentioned it before, but 47 
employment and training programs, 23 have not have a 
performance study of any kind completed since 2004 and only 
five have had an impact study since 2004, so we don't know what 
they are doing. We don't know whether they are effective. And 
as you pointed out, when you have got--in addition to the 
states administer a lot of these are overlapping, we are 
singing to the same people with both administrations.
    The other thing you pointed out, which I thought was 
excellent, was the fact that if your program was small enough 
it never got evaluated. And I think you mentioned 53.
    And the Secretary is to be commended for trying to shrink 
these down; I give him credit for that and that is a very good 
start, I think. But he can't know what to shrink if he doesn't 
know--having the accountability either. He can't know whether 
he is making any forward progress or not.
    So I think that those 53 programs--I want to be in one of 
those where I never get looked at.
    Mr. Dodaro. I think it is very important to make sure that 
everything that is done is evaluated. I mean, I think that, you 
know, there is a presumption that things continue to get funded 
unless there is a proven problem as opposed to making sure 
things work and are evaluated properly before they get 
additional funding.
    Mr. Roe. What kind of timeline do you think is reasonable 
to get this done so that we--it is a huge task, but what kind 
of timeline do you think we should be on?
    Mr. Dodaro. Well, I think there are things that could be 
tackled relatively short-term. I think it is clear the way to 
do that would be to set priorities with the administration and 
build off of some of the work that they have already done. That 
would be my recommendation. And then set priorities for where 
there are gaps in evaluation and requiring them to begin to 
close those gaps as soon as possible on a sort of a set 
schedule.
    Mr. Roe. Okay. Again, thank you very much.
    And I yield back.
    Mr. Dodaro. Yes.
    Mr. Chairman, if I might----
    Chairman Kline. You may.
    Mr. Dodaro [continuing]. For a second, one thing I forgot 
to do is introduce our program experts that are with me here 
today. We have our managing director for employment and 
workforce and income security programs, Barbara Bovbjerg. 
George Scott and Andy Sherrill are experts in these areas, too. 
And if I might, I might ask them to help to answer some of the 
more detailed questions.
    Chairman Kline. You certainly may. When I saw you look over 
your shoulder, I suspected that that indeed might be the case.
    So we welcome all of you here, and we welcome any input 
that you have got.
    Mr. Payne, you are recognized.
    Mr. Payne. Thank you very much.
    It is good to see you, and I thought that you just had it 
all in your head since you are one of the first presenters that 
I have seen that have not used a prepared text. Let me commend 
you for knowing your information so well that you don't need 
any notes. I have some, so you are ahead of me. [Laughter.]
    Let me just ask a question. In your testimony you said that 
the GAO found that many federal programs to improve teacher 
quality and employment and training had similar goals, 
beneficiaries, and allowable activities. Did the GAO report 
take into consideration the effectiveness of these programs or 
capacity for each program to meet the demand for the provided 
services? I mean, in light of the fact that you said there are 
duplicates, what were the results?
    Mr. Dodaro. Yes. We tried to find out whether or not there 
had been evaluations done on these programs and in these areas. 
And as I mentioned earlier, in many areas there really wasn't a 
lot of information about program evaluations that were 
available.
    So those that we did have available we were able to use, 
but there were a lot of gaps. So you weren't able to 
systematically look at all the 82 programs and determine, of 
the 82, which one's program evaluation showed the most 
promising results, and I think for the reasons that I mentioned 
earlier, some of them were too small, some of them are part of 
a broader program. And so there are a lot of difficulties in 
gaining that picture that you are seeking.
    Mr. Payne. In your testimony you said that, you know, as 
you have just mentioned, that even when programs overlap they 
may have meaningful differences in their eligibility criteria 
or objectives, or they may provide similar types of services in 
different ways. Are there any examples of that that you can 
cite where that would occur?
    Mr. Dodaro. In the teacher quality area?
    Mr. Payne. Yes.
    Mr. Dodaro. Yes. I don't have notes but I do have people, 
and I would like to ask George Scott to come up as our expert 
in that area. He can enlighten you on that----
    Mr. Payne. Great.
    Mr. Dodaro [continuing]. If I will.
    George, please?
    Mr. Scott. Good morning, Congressman Payne.
    Mr. Payne. How are you?
    Mr. Scott. So again, what was your specific question?
    Mr. Payne. That in the testimony it said that even when 
programs overlap they may have meaningful differences in their 
eligibility criteria or objectives or they may provide similar 
types of services in different ways. And I just wondered if 
there were any examples of how this might occur.
    Mr. Scott. Well, there are examples across some of the 
teacher quality programs where either, you know, through 
comparative grants or through allowable activities you may see 
very similar activities but, you know, they could be targeted 
to very similar populations. That is why we were very careful 
to distinguish between fragmentation, overlap, and duplication.
    And what we say clearly in our work is that, you know, we 
have found evidence of fragmentation, where you have a lot of 
activity spread across several agencies or departments. We also 
have some indication of overlap, at least for a small number of 
programs under the Department of Education.
    But we talk about potential duplication but we did not 
actually find examples of duplication in the teacher quality 
programs.
    Mr. Payne. Okay. Thank you very much.
    Just a final question: This is probably for the future, but 
as, you know, in H.R. 1 they are regarding--in the program 
there will be an effort to close 3,000 one-stop career centers, 
eliminate summer youth employment programs, which provide 
access to job training and education to up to 7,000 
disadvantaged students, and then the workforce development 
support provided to more than 1 million dislocated workers. Is 
this effort in line with the recommendations submitted in the 
report or have you dealt on what the potential would be if 
these cuts went into effect?
    Mr. Dodaro. I don't think we have evaluated that, so I will 
go back and we will take a look at it and if we have evaluated 
that, Congressman, we will provide it for the record, get it to 
you.
    Mr. Payne. Great. Thank you very much.
    Yield back.
    Chairman Kline. I thank the gentleman.
    Mr. Thompson?
    Mr. Thompson. Thank you, Mr. Chairman.
    General, thanks for being here, for your testimony. Your 
report--I was going through the report--specifically identified 
47 separate employment training programs across nine agencies. 
The programs spent $18 billion.
    And certainly, you know, workforce development, I think, is 
the key to America's competitiveness, but in your findings only 
five of those 47 programs had self-evaluations outcomes or 
impact studies of really outcomes. And as a former workforce 
investment board member I certainly have seen the value of 
workforce development programs in my local areas.
    And everyone--everyone--is concerned about jobs. What are 
some immediate actions the committee can take to assure that 
value and outcomes for employment training are delivered with 
the investment that we are making with taxpayer dollars?
    Mr. Dodaro. I think the best way to go about it is to hold 
the department accountable for producing the evaluations that 
they were supposed to produce, and they are behind. Labor 
Department has been slow to produce the evaluations. We have 
made many recommendations over the years to try to get them to 
improve the performance measures.
    So, you know, I believe that you really have to, you know, 
put the responsibilities with them and try to get them to give 
you what they have. Now, they do have some of the evaluations 
and some show positive results, so I think it is important to 
understand that. But I think in these other areas you have to 
really, you know, basically hold them accountable for providing 
the type of evaluations that you are looking for.
    Mr. Thompson. So I am sure we will do oversight hearings on 
this. I think that is kind of what I am taking from your 
recommendations.
    But there will be some program areas where there is--based 
on your department's analysis there really isn't good data or 
tracking of outcomes with some programs?
    Mr. Dodaro. Right. In fact, let me ask Andy Sherrill, who 
is our expert in the employment and training area, to come up 
and give you sort of a rundown on what is available and what 
isn't.
    Mr. Sherrill. Okay. With regard to the tracking of 
outcomes, we found that most all of the 47 employment and 
training programs do track certain outcomes, most frequently 
things like entered employment, or retention of a job, or 
wages, that kind of thing.
    But we also found that, with regard to the evaluations, as 
we have said, you know, programs typically track outcomes but 
not a lot is known about sort of the effectiveness--to what 
extent do the programs contribute to the achieving the 
outcomes? What would have happened in the absence of the 
programs?
    And so that is sort of historically--in the work we have 
done on the Workforce Investment Act programs, sort of a 
repeated theme of our work has been the need for more 
information about what works and what doesn't.
    Mr. Thompson. Very good. Well, thank you.
    I want to change gears just a little bit. The report states 
that in April 2010 the GAO recommended to the Department of 
Agriculture--I sit on the Agriculture Committee as well--that 
it identify and develop methods for addressing potential 
inefficiencies and reduce unnecessary overlap in smaller food 
assistance programs, including convening a group of experts to 
examine the issue. To date, however, the USDA has not 
implemented any of the recommendations.
    Were you able to determine why the USDA ignored this 
proposal?
    Mr. Dodaro. Yes. My understanding is the reason that they 
gave our team was that they didn't have funding in order to 
implement the recommendation. But I think this is something 
that the Congress should expect. It is part of normal 
management activity; it should be budgeted for and it should be 
done.
    Now, in this particular area we found 18 food assistance 
programs, 11 of which there weren't a lot of evaluations done. 
There was a lot known about the seven larger ones but these 
other 11 there really weren't, and so we were trying to 
encourage them to close that gap.
    And I think this, you know, it is something that should 
be--Congress should expect the agencies putting the money out 
to be able to tell you what we received for the money and 
whether it is working effectively or not. And so we will keep 
pressing our recommendations but I would encourage the Congress 
to follow up.
    Mr. Thompson. Thank you, General.
    I yield back, Chairman.
    Chairman Kline. Thank the gentleman.
    Mr. Tierney?
    Mr. Tierney. Thank you, Mr. Chairman.
    Thank you, Mr. Dodaro, for your testimony, and the others 
as well.
    I am interested in what you said about the--and what your 
associates said about measuring the outcomes on the Workforce 
Investment programs. Last time we reauthorized that bill it was 
a big conversation about the fact that we had been measuring 
the data in terms of the number of people it served, the number 
of dollars allocated to those people, but not enough on the 
outcomes.
    Now, if I am hearing right, what you are saying is we have 
information about the outcomes of those programs--how many 
people now have jobs, and how many people have increased 
wages--and you think that there is a need to measure, somehow, 
how it is that the program got those outcomes. How would you go 
about measuring that?
    Mr. Sherrill. Well, for example, the WIA Adult and 
Dislocated Worker programs track outcomes with regard to, you 
know, how--and have performance goals with regard to the 
percentage of people that they want to have enter employment, 
have certain wage levels, and retain jobs. And, for example, 
for the program year 2009, if you look at to what extent were 
those goals achieved, in many cases they weren't achieved, in 
part--you know, obviously the economy has a key effect. But any 
time, you know, you have outcome measures you also want to get 
some sense of whether the programs meet them or not, to what 
extent are sort of funding for the program responsible for 
those?
    Mr. Tierney. So if I am hearing you, what you are saying is 
they had the outcomes but they didn't match them up with the 
expectations, so they didn't have the goals as they relate to 
the outcomes?
    Mr. Sherrill. Well, they had the performance goals, 
performance--things that they wanted to achieve, but we don't 
have a good enough sense of to what extent are the things that 
the programs are doing, and sort of the one-stop center 
approach, actually making a difference. In other words----
    Mr. Tierney. Yes, and I guess my question to you is, how do 
you do that, all right? If you have the goals and then you have 
the outcomes you can match those up and see whether or not it 
is working, or to what extent. But how do you determine whether 
or not the action you took is the action that got it to that 
point or some abstract thing that--I don't know how you 
measure----
    Mr. Sherrill. Well, there are two kinds of key ways. One is 
to do an impact study that relies on random assignment, so you 
have a control group of people who don't go through the 
program, and so you compare what effects the program has versus 
those for the control group.
    There has also been other kinds of studies that use 
administrative data to do sort of comparisons, where there 
isn't a control group, but to look at other people who are 
similar to the people going through the program and try to 
assess the outcomes. Are there differences in outcomes of the 
program versus the comparison group?
    And so there have been studies in some of the WIA programs 
to assess, is the program, as far as we can tell, having an 
impact on results?
    Mr. Tierney. Thank you. Thank you very much.
    Now, General Dodaro, you did say in your report that you 
don't question the fact that the job training programs play an 
important role in helping job seekers obtain employment. Is 
that accurate?
    Mr. Dodaro. Yes. That is correct.
    Mr. Tierney. But that there are some overlap you think. But 
I don't think you made a judgment as to whether or not all of 
the overlap was, in fact, problematical. And I draw that to a 
distinction on some veterans programs.
    I know in many districts on that--there is a veterans 
program that serves the veterans homeless; there is another 
veterans program that might target, you know, disable veterans, 
for instance. Really, that is two different challenges that 
might be required of them.
    So you are not making an evaluative judgment on whether 
those should be allowed together or anything. You are saying 
that they exist and they are separate?
    Mr. Sherrill. That is right. I mean, when we say that there 
was overlap and that they provide at least one similar service 
to a similar population we are not saying that that in itself 
is a problem, but that might warrant a deeper look, just as you 
are saying, because there are several programs that serve 
youth, for example, but as a target population, you know Job 
Corps provides services to--in a residential setting, other 
programs, you know, provide different--so we think that overlap 
provides an opportunity to look deeper at some of these 
programs to see the extent they are coordinated, the extent 
they might potentially be duplicating services.
    Mr. Tierney. No, in the context of trying to reauthorize 
this bill over the last several years have you made any 
evaluation--I know that we have made efforts, the different 
groups on both sides, of trying to consolidate some of these 
programs and make the kinds of adjustments you are talking 
about, as has the administration.
    Have you taken that work to date and seen how it measures 
up to your suggestions, whether or not what you are suggesting 
is, in fact, being addressed at all in that process?
    Mr. Sherrill. We haven't made any evaluations of the 
consolidation proposals there. The focus of our recommendation 
on the employment training front was really to foster more 
innovation at the state and local area, and for the federal 
agencies to disseminate information about what is working there 
and what might be replicated in terms of achieving greater cost 
efficiencies.
    Mr. Tierney. Now, there is an effort going on, but I know--
just because I happen to be fortunate enough to have a 
workforce investment board that is one of the national models 
so I brag a little bit about that--but I know that those types 
of studies are going on, and in fact, work is being done within 
that network of workforce investment boards on monitoring each 
other, mentoring each other, and trying to bring best practices 
around. Was that evaluated at all--that effort?
    Mr. Sherrill. Well, we think that is a--we didn't evaluate 
that effort but we think that is a good avenue for looking for 
cost efficiencies and mining what states are doing.
    Mr. Tierney. But you didn't take any measure of how that is 
doing----
    Chairman Kline. The gentleman's time has expired.
    Dr. Bucshon?
    Mr. Tierney. Thank you for cutting me off, Mr. Chairman. 
Very polite.
    Mr. Bucshon. Thank you, Mr. Chairman.
    This is just the type of report I think the American people 
just hate to hear out of Washington, D.C. I mean, I think it 
confirms their impression of what we do here with their money.
    I am also continued to be amazed at the resistance by some 
in Congress to tackling this problem, especially, in fact, that 
we continue to find excuses of why we can't consolidate 
programs and make things more efficient here in Washington, 
D.C., including some comments that have been recently made 
right here in this hearing.
    In my view, it is not good enough to consolidate programs 
but actually not decrease the size and scope of government. 
Putting the same number of Washington bureaucrats under 
different titles without actually eliminating those with 
duplicative roles doesn't accomplish anything. And in that 
vein, I look forward to the specifics from the administration 
in regards to this process within the Department of Education.
    The question I have is, could you discuss briefly how 
inclusive the research was? Did it include all federal 
departments and programs? What were the limitations and why did 
you choose to limit the limitations that you chose?
    Mr. Dodaro. Basically, the statute requires us to produce 
an annual report every year, and we don't have the resources to 
cover the entire federal government every year. And so what we 
decided our plan was is we started with discretionary programs 
and work that GAO had already done over the years that we could 
build upon for this first report, which was done.
    And so we included defense and civilian agencies. We are 
going to be looking, in the next 2 years, in entitlement areas 
and also tax expenditures.
    You know, at any one time every year there is as much 
revenue foregone through tax expenditures as there is outlaid 
in discretionary programs, and some tax expenditures, 
particularly, like, in the student loan area, overlap some of 
the lending programs. So we are going to be looking at lending 
programs as well as tax expenditures, discretionary and 
mandatory programs, as well.
    And so we hope over the next 2 years we will cover the 
entire federal government in these first three reports. That is 
our goal and we are aiming toward that.
    Now, we also included in the report additional 
recommendations on cost savings that did not involve overlap, 
duplication, or fragmentation, that GAO had identified in its 
work, and also ways to enhance revenue coming into the 
government. And so we plan to continue to do that, Congressman.
    Mr. Bucshon. Thank you.
    And also, you did comment some about the states, and did 
you look at state-funded programs around the country and 
crosscheck those with some of these federal programs within the 
departments? And would that likely have even led to a higher 
number of redundant programs within the federal government?
    Mr. Dodaro. You know, I have had that similar question 
myself, and our mandate goes to federal programs, so federal 
programs that are administered through the state and local 
level we are including in our review. But I do believe one of 
the next things we need to do once we get through the federal 
government is look at that very issue, because I think the 
intergovernmental delivery system that we have is rather 
fragmented as a whole, and I think there are opportunities 
there as well.
    And if we did look at that, you know, I think we would come 
up with some potential recommendations. But that is down the 
road.
    Mr. Bucshon. Thank you, Mr. Chairman. I yield back.
    Chairman Kline. I thank the gentleman.
    Mr. Scott, you are recognized.
    Mr. Scott of Virginia. Thank you, Mr. Chairman.
    One of the challenges we have is trying to figure out an 
idea that we want to have here in Washington and then you--by 
the time the idea gets down to our local districts, as you have 
suggested, the money gets caught up in bureaucracy and red 
tape. And another consideration we have is a teenager, even if 
there is overlap, if you have got a job--a summer job program a 
teenager is only going to get one job so the fact that there 
may be overlap in programs isn't much of a problem.
    Can you tell us what we can do with the money we are 
spending to enhance the number of young people who have summer 
jobs?
    Mr. Dodaro. Let me ask Andy to come to the table and talk 
about that, Congressman.
    Mr. Sherrill. One of the areas we looked at under our 
Recovery Act work was the WIA Summer Youth Employment program, 
and what we found there was that states really--well, states 
had a very short time to gear up because Congress did emphasize 
the importance of providing summer youth employment. It was, in 
general, a success story. Most of the states we visited and 
analyzed were able--and some states hadn't previously had 
summer youth programs--most were able to quickly ramp up and 
serve a lot of additional youth with their summer youth 
programs.
    Mr. Scott of Virginia. So with the money that we provided 
an appropriate number of youth actually got jobs?
    Mr. Sherrill. In some cases they weren't able to meet the 
entire demand at some places. In other places they had trouble 
finding enough youth to sort of--that they wanted to serve. But 
what we heard sort of in most places was that people thought 
that was a very useful program for serving youth.
    Mr. Scott of Virginia. Was there any overlap or any 
bureaucratic red tape between Washington and the youth actually 
getting a job?
    Mr. Sherrill. I mean, part of one of the issues we found 
was that Department of Labor--in fact, we recommended--needed 
to provide more guidance in terms of the outcomes expected for 
the youth program, in terms of sort of the guidance, because we 
found that what states were measuring in terms of skill 
attainment for the youth, the way they were measuring it kind 
of across the board didn't easily allow you to tell--sort of to 
assess the gains across localities and states. So we 
recommended that Department of Labor provide more guidance in 
this area and pay attention to that issue.
    Mr. Scott of Virginia. Okay. I noticed that you have a lot 
of overlap in programs to enhance teacher quality. Again, even 
though they may overlap, each teacher will presumably only get 
one program. Can you tell us how we are doing on teacher 
quality?
    Mr. Dodaro. I will ask George Scott to come up and 
elaborate, but we do have an example in our testimony about how 
one individual teacher could get several different assistance 
over a period of their career. So it is possible for one 
teacher to get aid under multiple programs that may or may not 
be duplicative. It might be quite appropriate in some 
circumstances.
    Mr. Scott of Virginia. But that could be a good thing, that 
they would learn a lot of different things.
    Mr. Dodaro. Right. But again, it will only be known if 
there is evaluation done of these programs, which, in many 
cases, is not happening. But let me ask George to elaborate.
    Mr. Scott of Virginia. And is the answer to the problem 
evaluation or is the problem red tape getting the program from 
idea in Washington to on the ground in our districts?
    Mr. Scott. The issue we have highlighted is the lack of 
rigorous evaluation of many of these programs. As the 
Comptroller General mentioned, there are instances where 
teachers, under either the Elementary and Secondary Education 
Act or under the Higher Education Act, can qualify for various 
teacher quality programs throughout their career. That is not 
where the problem is.
    From our perspective, one of the key issues is it is not 
clear based on the limited number of evaluations that the 
Department of Education has conducted, you know, to what extent 
are those programs achieving their stated objective? And so 
from our perspective, that is really why it is really important 
to hold the department accountable for ensuring that in 
addition to rolling out these programs that there is some 
evaluation component built in so that at the end of the day we 
have a clear picture of whether these programs are achieving 
their intended objective.
    Mr. Dodaro. I think basically, Congressman, also, in the 
department's justification for consolidating the 38 programs 
into 11 they point out that, I think, they think the problem is 
both, that there is a lot of effort and time that goes into 
evaluating these competitive grant programs that could be 
better spent focusing on programs that have a proven track 
record, and that is part of their justification for the 
consolidation.
    Chairman Kline. Thank you.
    Mrs. Roby, you are recognized.
    Mrs. Roby. Thank you, Mr. Dodaro, for being here. I 
appreciate your testimony and your willingness to answer our 
questions.
    On page 141 of the report it mentioned that some states 
have colocated the Temporary Assistance for Needy Families, 
employment, and training services in one-stop centers where 
employment services and the Workforce Investment Act Adult 
Services are provided. Additionally, three states, as stated in 
the report--Florida, Texas, and Utah--have consolidated the 
agencies that administer these programs, and state officials 
said that this reduced cost and improved services.
    Could you just expand further on how either colocating 
services or consolidating agencies can improve the services and 
what kind of improvements we might expect to see?
    Mr. Dodaro. Yes. That is a very good question. I will let 
Andy explain the details.
    Mr. Sherrill. On the colocation theme, part of what we 
found in our work--previous work on WIA--is that provides an 
opportunities for different program partners to do things like 
cross-training staff, have common intake processes, share 
computer systems, sort of provide services more efficiently and 
sort of have a more common face for the people coming through, 
a single plan for the person, that kind of thing. So it 
provides opportunities for better serving customers.
    On the three states that we--Utah, Texas, and Florida--that 
had consolidated their state welfare and workforce agencies, 
they basically told us that this had--in their view, has 
allowed them to save some administrative costs and better serve 
people, as well. But as we have said here, there is not a lot 
known about this.
    You know, what were the challenges? What were the results? 
What were the approaches that they used? What are the remaining 
issues to doing those kinds of initiatives?
    So that is where we think there can be more focus.
    Mrs. Roby. Right. And I guess, to add on to that, I mean, I 
think you said earlier in your testimony that 23 of the--there 
are 44 out of 47 that have been identified, but 23 of them 
haven't been evaluated at all as it relates to the 
administrative efficiencies, but of the programs that have been 
evaluated, are there any performance measurements to show that 
they actually result in individuals finding jobs faster or 
securing jobs at higher pay? Has any of this been looked at?
    Mr. Dodaro. Yes. There are some limited studies. I will ask 
Andy to elaborate on them. There are two that we know of. They 
are not generalizable to the entire population but they do 
provide some insight into people gaining employment that leads 
to a higher income.
    Mrs. Roby. Okay.
    Mr. Sherrill. Right. Both of these studies--one in 2008, 
one in 2005--were impact evaluations of the Workforce 
Investment Act Adult and Dislocated Worker programs that--one 
of them, I think, was 12 states; another was in seven states. 
Both found that the program had positive impacts compared to 
other sort of similar populations where they did statistical 
data-matching.
    So people coming through the WIA--these WIA programs tended 
to have higher getting into jobs, like one of them found 
receiving any WIA services in these two programs was 
generally--result in a 10 percent gain in sort of--10 
percentage point gain in entering employment, so getting into 
jobs more. They also found sort of increases in people's 
earnings achieved as well, compared to the comparisons group 
they had. So some positive impacts.
    Mrs. Roby. Thank you so much.
    Mr. Chairman, I yield back.
    Chairman Kline. Thank you.
    Ms. Woolsey, you are recognized.
    Ms. Woolsey. Thank you, Mr. Chairman.
    And my apologies for not being here during your testimony, 
and I may be somewhat repetitive. But I am definitely concerned 
that if we were to consolidate all the programs that you 
studied, and maybe--which is four more, you are recommending, 
than the department has recommended--I am really worried about 
how it would affect the quality of our education system.
    And would there actually be a net positive in terms of 
bringing more efficiencies, or would it just leave teachers and 
students who receive federal assistance hanging because all of 
a sudden there are fewer programs and less funding and they are 
all competing for the--out of the same pot?
    This is, like, three questions. Here is the third: Isn't it 
reasonable to believe that new programs have been added over 
time to cover areas not included in the existing programs, and 
how will we ensure that those programs don't get left out?
    Mr. Dodaro. I will ask George to elaborate a little bit, 
but it is clear that programs have been added over time to fill 
what is a perceived need or a gap in particular services. But 
what we have observed in looking at programs over time, after a 
period of time the original intent of the program can change 
over a period of time and there needs to be careful monitoring 
to make sure that it actually achieved what it did.
    Right now one of our messages is that in many of these 
programs we really don't know whether they are achieving their 
original objectives or not in the first place. Now, there is a 
danger of unintended consequences. If you do change those 
programs or consolidate in some way it may have unintended 
consequences, but unless the department clearly monitors what 
is going on and provides feedback to the Congress we won't know 
whether these programs either serve their intended purpose or 
what the revised purpose will be that the Congress sets for 
itself.
    There are safeguards that could be put into the programs to 
make sure--Congress could give the Education Department, for 
example, some additional flexibility if something goes wrong. 
There could be more flexibility given to the state and local 
governments as well to be able to deal with those issues.
    So I think there are possibilities for consolidation while 
building in appropriate safeguards that guard against 
unintended consequences. But let me ask George to elaborate.
    Ms. Woolsey. So, George, while you are elaborating, tell me 
what that safeguard would look like or sound like.
    Mr. Scott. As our work has pointed out, there is a mix of 
programs across a range of agencies, including both specific 
programs as well as allowable activities, and our message here 
has been, you know, while clearly, you know, these programs are 
serving--can serve similar target populations, can provide 
similar types of assistance, can even have very similar 
objectives, but what that does is it raises a couple 
challenges.
    One is that it really complicates efforts--and we have 
heard this from the Department of Education--it really 
complicates efforts to effectively administer these programs in 
the comprehensive manner across--not only within the 
department, but across other federal agencies. That is why it 
is important that to the extent that there can be a higher 
level of strategic planning about some of these activities--for 
example, as the Congress did with Competes Act, it really sort 
of allows agencies to look outside of themselves and look 
across the other--to similar activities across the federal 
government.
    That could be, for example, one of the safeguards we can 
build into these other programs to ensure that their folks are 
ensuring that the programs are reaching the target populations.
    One of the other challenges that the Department of 
Education has raised, and we certainly concur with, is that by 
having such broadly fragmented programs it makes it very 
difficult to understand and to evaluate which programs work and 
which are not. Out of the 23-plus programs that we looked at 
back in 2009 only about six of them have completed evaluations. 
And the bottom line from those evaluations was little is known 
about how effective these programs are.
    So clearly, you know, it creates problems or challenges for 
the Department of Education as well as for the grantees, in 
terms of having to apply for these grants.
    Ms. Woolsey. Well, were there any programs that you thought 
had legitimate reason for overlap? I mean, could you----
    Mr. Scott. Well, as we said, you know, out of the 82 
programs we looked at--we looked at those specifically within 
the Department of Education--we found that 14 of those actually 
overlapped with at least one other program across a couple key 
areas--similar objectives, target populations, activities, and 
services. We did not, however, find the duplication, which is 
sort of doing the exact same thing for the exact same target 
group.
    So we are very careful in terms of how we phrase what we 
found in terms of the teacher quality programs.
    Ms. Woolsey. So out of 80 there was 14?
    Mr. Scott. Fourteen of the programs within the Department 
of Education. There were 63 programs administered by the 
Department of Education, and out of those we found 14 
overlapped.
    Ms. Woolsey. Okay. Thank you very much.
    Chairman Kline. Thank the gentlewoman.
    Mrs. Noem, you are recognized.
    Mrs. Noem. Thank you, Mr. Chairman.
    Thank you for coming today, Mr. Dodaro. And I appreciate 
your testimony and your willingness to be here, and your 
explanations as well.
    You know, your report is very comprehensive and I 
appreciate that. I think it has, unfortunately, confirmed a lot 
of the public's sentiments, that a lot of what we do at the 
federal government level is fragmented and duplicative, and 
frankly, we can't keep track of what we do ourselves. So I 
thank you for that report.
    I also wanted to talk to you a little bit specifically, 
because I represent the state of South Dakota--the entire 
state--which is filled with rural, small schools. And so I know 
that there are a lot of challenges that they face because they 
have very small staff, they have difficulty complying with the 
different requirements between different programs and keeping 
them straight, between agencies and departments.
    And so I would like you to tell me a little bit of, do you 
feel that this duplication puts small schools and rural schools 
at a disadvantage in trying to comply and qualify for a lot of 
these different programs in order to receive possible funding 
or assistance?
    Mr. Dodaro. Well, what we have found over time--and George 
can talk specifically in the education area to your question 
about the small schools--but it is difficult for a lot of 
people to identify what federal funding is available, how to 
foresee--to achieve that funding, how to write a good grant 
application to be competitive in that area.
    So it does put a burden on entities that are applying for 
assistance, and that was one of the things that we thought 
could be looked at in this particular case to streamline that. 
In fact, that is one of the reasons that the Education 
Department puts forth its consolidation proposal is to 
eliminate some of that competitive grant kind of process and 
allow its employees to focus more on improving teacher quality 
and outcomes----
    Mrs. Noem. But competitive grants would also create that 
same problem for rural schools that maybe don't have a staff 
that are used to writing grants, as well.
    Mr. Dodaro. Right. Well, but you would be able to--yes, 
right, you would be able to free up resources that are consumed 
through administrative processes competing for small amounts of 
money to be able to look at it in a broader standpoint and to 
give more flexibility to the local officials to meet their 
needs, which is, I think, an important tenet of the program.
    But let me see if George has anything to add.
    Mrs. Noem. Okay.
    Mr. Scott. Sure. We have not yet specifically looked at 
this issue of the capacity--basically it is a capacity issue--
of states or LEAs. We do have a couple ongoing reviews, but I 
think we will touch on that issue.
    We have work going on looking at both Race to the Top, the 
competitive large federal grant--competitive grant program, as 
well as state improvement grants. And so we are out in the 
states, and so we will be able to provide here this summer 
some--a better picture of some of the challenges. And the 
Comptroller General has already, you know, laid out what we 
have heard generally about the capacity of certain states in 
terms of competitive grants, but we will have more specific 
information on that this summer.
    Mrs. Noem. Okay. I will look forward to that.
    You know, Mr. Dodaro, one more question: I know that the 
Federal Tea Taster was abolished already, but in your view, 
after putting this report together, what do you feel is the 
most wasteful or duplicative program that you found when you 
were putting this together?
    Mr. Dodaro. Well, there are a lot to look at. I don't have 
any personal favorites.
    There are some, though, that we were able to put some 
dollar savings on, which I think are really important. Like, 
for example, in the Social Security program state and local 
workers that aren't in the program, their spouses--the Social 
Security offsets if somebody is receiving another government 
pension, they don't have, really, the information from the 
state and local level to be able to offset those pensions. If 
IRS put one line on one form to be able to collect that 
information it is estimated by CBO the federal government could 
save $2.4 billion to $2.9 billion every 10 years if we collect 
more information.
    There is also $640 billion that has been sitting for 10 
years in the customs service of an additional duty that was 
imposed, and really, nobody has determined what the proper use 
of that money would be. We recommend a look at the duplication 
between the Ethanol Tax Credit and the Renewable Fuel Standard 
and basically say, ``We don't believe you need both at this 
point in time,'' and if you reduced the tax credit last value 
was about $5.7 billion in amount of money that could be saved.
    And so we also point out that there could be more 
competition in federal contracts. About 30 percent of those 
contracts aren't competed or there is only one person competing 
it, and where there have been competition the federal 
government's costs go down through that activity.
    We point out the oil and gas revenue management. We just 
added that to our high-risk list. And we don't believe there is 
reasonable assurance the federal government is getting its 
value for oil that is produced on federally leased lands and 
that, you know, a lot more money could be achieved through that 
process.
    So that is just a sampling.
    Mrs. Noem. That is a good list. Thank you. Appreciate it.
    Mr. Dodaro. Thank you.
    Chairman Kline. Thank you.
    Dr. Heck?
    Mr. Heck. Thank you, Mr. Chairman.
    And thank you, General Dodaro. I am appreciative for your 
thoughtful and candid comments and the very thorough and 
knowledgeable preparation of your staff. It is a pleasure to 
have you here.
    In the report in March it states that overlap and 
fragmentation among government programs or activities can be 
harbingers of unnecessary duplication. Reducing or eliminating 
duplication, overlap, or fragmentation could potentially save 
billions of tax dollars annually.
    And then in the March 18th letter to congressional 
addressees it was stated that determining whether and to what 
extent these programs are actually duplicative requires 
programmatic information that is often not readily available.
    I recently introduced a resolution that would require 
Congress to proactively list any duplicative programs as part 
of the committee process prior to authorizing a new program. 
Would that help GAO better track and highlight duplication and 
overlap of programs? And what, in your opinion, could Congress 
do better?
    We can always talk about what is out there now, but what 
can we do moving forward to prevent this from happening? What 
can we do better to avoid these pitfalls in the future?
    Mr. Dodaro. That is a very good issue. In fact, I was 
testifying before the Senate Budget Committee and they asked me 
the exact same question.
    I think, you know, having something going forward that 
involves some sort of an analysis about a new program proposal 
to make sure it doesn't duplicate or overlap something that 
already exists would be a very good process for the Congress to 
incorporate into its deliberations and decision making. That 
function could be performed by OMB or CBO. Some have suggested 
GAO as another alternative for that.
    And so I think that that is just a prudent approach to be 
able to do it. Like, right now there are cost estimates of CBO 
about what it costs to implement new legislation. I think 
having some safeguard in place--or at least informing the 
Congress--and it may decide to proceed for very valid reasons 
in any event, but I think having that information is better 
than not.
    Chairman Kline. I thank the gentleman.
    Mr. Walberg?
    Mr. Ross?
    Mr. Ross. Thank you, Mr. Chairman. I appreciate that.
    You know, I want to focus on workforce because I think that 
is rather important. I mean, we have been up here talking about 
jobs and I think that the federal government doesn't have a 
responsibility for creating private sector jobs but I think it 
has a responsibility for creating the environment and making 
sure, of course, that we have programs out there that will 
train and provide the qualifications necessary for people to 
find sustainable private sector employment.
    And I see in your report where three states, one of which 
is mine--Florida, Texas, and Utah--have gone a step further by 
consolidating, but you can't determine what the savings is from 
that. Now, the reason for consolidating--are there any federal 
incentives in these programs to consolidate the resources?
    Mr. Dodaro. Not enough. That was our recommendation. Our 
recommendation was that the federal agencies should provide 
more incentives to the states.
    I think, no, the states and the locals are closer to the 
ground. They understand the populations they are serving. They 
have their own individual arrangements within each state.
    And so, you know, we think there ought to be more 
incentives. And that was one of the concerns I had when HHS 
said that they can't provide it legislatively under the TANF 
program. I think that they should make a proposal and Congress 
should give them the flexibility to be able to do that. But I--
--
    Mr. Ross. Any idea what incentives you would suggest to 
encourage them to do that?
    Mr. Dodaro. Yes. Well, there are pilot activities that 
could be made. There is some freedom from administrative 
requirements that could be put in place.
    There are a lot of incentives, and if they consult the 
state and local governments I bet they will get a longer list.
    Mr. Ross. I think you are right.
    With regard to the 47 programs that you identified, would 
it be safe to say, however, that there are other state 
programs, as Mr. Bucshon was talking about, that may also 
receive federal funding that were not included in this?
    Mr. Dodaro. Let me ask Andy if he knows that.
    Mr. Ross. Okay. Thank you.
    Mr. Sherrill. That is possible. I mean, we focused for this 
on federally funded programs, so we didn't look to see whether 
there are also state-funded programs that might also be 
providing similar services.
    Mr. Ross. What about appropriations that may go through the 
educational system--say, like, into community colleges for 
their workforce or reemployment programs? Is that included as 
part of the 47 or is that something different?
    Mr. Sherrill. No. Those weren't included as part of the 47. 
I mean, Department of Labor has done certain grant programs in 
the past to provide sort of high-growth job initiatives, that 
kind of thing.
    Mr. Ross. So in essence, there could be significantly more 
duplication than just what was found by the 47 if you take into 
account not only those 47 programs but also educational 
programs through the Department of Education as well as any 
state programs that may receive federal funding?
    Mr. Sherrill. It is possible. I mean, we did focus on 
federally funded programs that have a primary focus on 
employment and training, which we defined as enhancing the 
skills--the job-related skills of workers, identifying job 
opportunities, and helping people find a job.
    Mr. Ross. Thank you.
    Mr. Dodaro, you----
    Mr. Dodaro. Yes. I do want to look at that down the road.
    Mr. Ross. Thank you. I appreciate that.
    Mr. Dodaro. We do a lot of work with the state auditors, 
and I think we can have a joint effort to look at that program. 
I think that makes a lot of sense.
    Mr. Ross. Thank you. I commend you on what you are doing, 
and I yield back.
    Mr. Miller. Would the gentleman from Florida just yield for 
1 second?
    Mr. Ross. Yes, sir.
    Mr. Miller. Just to follow up on his questions, in the case 
of WIA, though, at least it appears to me at the local level 
that some of that money is used--he was talking about community 
colleges, and when employer and community colleges and people 
sit down and some of that money is used to develop a program--
they may have a need because of a new employer or somebody 
coming and talking. And so would that be duplicative or is 
that--you know, because the community college is now----
    Mr. Sherrill. No. I think that would be typically included 
in the kinds of WIA Adult and Dislocated Worker programs where, 
you know, they would work with contractors or community 
colleges to provide training for people----
    Mr. Miller. So the make-up is they might shift--it might, 
you know, in one case Dow Chemical is doing all of the training 
themselves; in another case they have outsourced that to the 
community colleges because they wanted a broader spectrum of 
training. But the introduction of different parties doesn't 
necessarily make that a duplicative effort?
    Mr. Sherrill. No. No.
    Mr. Miller. Okay.
    Thank you. I yield back.
    Mrs. Foxx. Mr. Chairman, could I make a quick comment in 
relation to what Mr. Miller said?
    Chairman Kline. If Dr. DesJarlais will yield to you, which 
I now recognize him.
    Mr. DesJarlais. Actually, I don't really have any 
questions, so I would be happy to yield my time to 
Congresswoman Foxx.
    Mrs. Foxx. Thank you.
    I just wanted to tell Mr. Miller that in my experiences as 
a community college president we did work with folks who were 
running WIA programs, but in many cases there were three or 
four layers of administration, and it appeared as though the 
WIA programs were funding unnecessary and duplicative 
administrative structures in various committees across the 
district and across the state.
    In many cases the community college was doing all of the 
work, basically, but other agencies were skimming off as much 
as 30 percent of the money that was being provided, and all 
that was doing was paying for administrators in those agencies. 
And I think it is a real issue that needs to be looked at.
    Mr. Miller. If the gentlewoman would yield just for a 
second, and that may be the case. I guess my experience, I 
think--I guess I would say in my area that was more likely to 
be the case 10 years ago.
    What I find now is as they sit down on a regular basis--the 
education institutions and the employers and representatives of 
local government--they basically make a decision, how are they 
going to farm this project out? And then that entity, in the 
case of community colleges or a single employer or a group of 
employers who share the same need--I have a lot of heavy 
manufacturing in my district--they then take the responsibility 
for that.
    One of the reasons I was kind of down on WIA as they had an 
opportunity to reauthorize it because I still had concerns 
about kind of a heavy overhead in a lot of instances.
    Mr. Sherrill. One of the ongoing studies we have in this 
area that we think might shed some light is to look at WIA one-
stop locations that experts view as having promising practices 
as really bringing in multiple partners, economic development 
and others, and to really collaborate in new ways. So this is 
part of what we are doing currently and I think this should 
yield some examples of ways that are doing this in promising 
ways.
    Chairman Kline. I forget whose time it is, but I think, Dr. 
DesJarlais, if you are yielding back, Mr. Barletta, you are 
recognized.
    Mr. Barletta. Thank you, Mr. Chairman.
    And thank you, Mr. Dodaro, for testifying today.
    Yesterday I met with two middle school principals from 
Northeastern Pennsylvania who suggested that teacher quality 
programs should consider school administrators or those 
individuals who actually hire and evaluate teachers. Do any of 
these teacher quality programs consider school administrators 
or educational leaders that actually do the hiring?
    Mr. Dodaro. We will provide you an answer for the record. I 
don't know offhand. It is a good question, and I will get you 
an answer.
    Mr. Barletta. Just a follow up: Can you identify how the 
fragmentation and duplication of federal programs impacts 
states, school districts, and school administrators and how do 
they impact students?
    Mr. Dodaro. Yes. Our evaluation did not go down to that 
level of granularity. We were just looking at the federal level 
and coordinating it. I think ultimately if some of these 
consolidations go through that the department is looking at we 
can then do follow-up studies and to see if we can identify 
some additional areas.
    But I can tell you from evaluating federal programs that 
are administered at state and local level for many years, state 
and local governments appreciate greater flexibility and being 
able to use the funds to meet what their local needs are. And 
that could work effectively as long as there are good 
accountability mechanisms in place. But we will try to focus on 
that in the future.
    Mr. Barletta. Thank you. And to go back to the original 
question, if they do not--if these teacher quality programs do 
not--I believe they should. I think it makes sense to include 
those that are actually doing the hiring.
    Mr. Dodaro. And the administrators and the hiring--yes, we 
will get you a quick answer.
    Mr. Barletta. Okay. Thank you.
    I yield back the balance of my time, Mr. Chairman.
    Chairman Kline. I thank the gentleman.
    I think all Members have had an opportunity to ask a 
question. I obviously want to thank the Comptroller General.
    I will yield to Mr. Miller for any closing remarks he has.
    Mr. Miller. Thank you, Mr. Chairman, for having this 
hearing, again.
    And I just wanted to follow up a little bit on what 
Congresswoman Noem talked about, and we have had this 
discussion a little bit on the--for rural areas, these small 
pots of money you really have to raise the question of whether 
or not it is worth the cost of applying for those monies.
    And one of the things we are trying to look at in 
reauthorization is the consolidation with allowable uses, and 
they can make the determination how they want to use that 
professional development money within the guidelines, but have 
that kind of flexibility.
    But if they got something it would be worth applying for. I 
guess we have kind of come to that stage for a number of 
different reasons.
    And so we have tried to think about this in rural areas 
because it is starting to make less and less sense, and yet 
could they acquire the services, the resources to do that it 
would probably help improve the educational experience in that 
district. But a lot of times that district, you know, is not 
very big. There is one school and not a lot of alternatives.
    So I just want to say that I think what we are looking at 
in reauthorization--I guess I am making a commercial for 
reauthorization--is this kind of--these kinds of changes that 
we would look to adopt in terms of both flexibility and 
consolidation, so it would make sense for--I think it would 
make--the same case can be made even for large urban districts, 
in terms of how we--funds are segregated back and forth.
    Mr. Dodaro. I agree with you. And that is one of the 
reasons we were raising the issues we were, to stimulate that 
type of discussion and debate, Congressman, so I think it makes 
sense.
    Mr. Miller. Let me just raise one other point: As I 
understand the authorization under which this report--the big 
report--is done, department and government report annually to 
the Congress the findings, including the cost of duplication 
and recommendations for consolidation and elimination. Is there 
a follow-on to this initial report where----
    Mr. Dodaro. There will be one--the legislation requires an 
annual report, so we will be doing one every year. I am hoping 
that we will cover--the first three reports will cover the 
entire federal government and then I will be able to work with 
the people who authorize that legislation. It was initially 
sponsored by Senator Coburn----
    Mr. Miller. Right.
    Mr. Dodaro [continuing]. And to see if it makes sense for 
us to do it--keep doing it in perpetuity. Right now, yes, there 
will be a report every year.
    Mr. Miller. But in this report--I am sort of suggesting two 
things. One is, you didn't find duplication, but yet if you had 
found outright duplication as opposed to overlap or shared 
missions or whatever they call it, would you then be making--in 
the future would you be making a recommendation with--for 
consolidation and elimination?
    Mr. Dodaro. We could. If we have the necessary work done we 
would present some options to the Congress, yes.
    And one of the things I would suggest for this committee, 
if there are areas that you would like us to look at and 
incorporate into our future work in this area we would be more 
than happy to do so. Actually, the 81 areas that I mentioned in 
this first report were really done as part of work for well 
over a third of the committees in both the House and the Senate 
over a period of time, and so we just built off of that work, 
created some new work. But we would, and some areas where we 
are doing that.
    We were also trying to get ahead of--you know, not waiting 
for duplication to occur----
    Mr. Miller. No, I understand.
    Mr. Dodaro. Yes, and so, but we would be happy to entertain 
areas that this committee thinks are important to look at and 
incorporate into our work.
    Mr. Miller. Thank you.
    Thank you, Mr. Chairman.
    Chairman Kline. I thank the gentleman.
    And this is one of those committees, and sometimes we agree 
on other sides of the aisle, and occasionally Mr. Miller and I 
exactly agree. And it happens rarely, and so we try to make 
note of it.
    But I identify with his comments about the difficulties 
that, again, Mrs. Noem raised of rural schools, and these 
programs that are very small, and you indicated that some of 
them haven't been even evaluated; they are too small and people 
don't bother with it.
    And the small schools don't have the--maybe some of these 
school districts are one school, and they simply can't. They 
simply can't find people to put in grant applications and so 
forth. So we are looking for much more flexibility and 
consolidation.
    And I appreciate the plea or advertisement for 
reauthorization. We are moving on reauthorization on a number 
of fronts, and one of them--obviously ESEA is in front of us, 
but WIA is in front of us.
    And again, I want to thank you very much for coming in, for 
the really terrific work that you do. And I know it is a lot of 
work and there is a temptation, which we apparently can't 
resist, to keep tasking you to do more working. And I heard you 
volunteering to do more work, so probably more will be coming 
your way.
    So again, thank you very much to our guests and to our 
witnesses and to my colleagues. There being no further 
business, the committee stands adjourned.
    [The statement of Mr. Rokita follows:]

 Prepared Statement of Hon. Todd Rokita, a Representative in Congress 
                       From the State of Indiana

    Thank you Mr. Chairman. We are here today to address a very 
important issue--the continued spending of money that our Country does 
not have. As a member of the House Budget Committee, I have spent the 
past few months working with our colleagues on ways to rein in 
Washington's out of control spending problem. The issue we have before 
seems to me to be a very strong step forward--eliminate those programs 
our government is spending money on that are duplicative, wasteful, and 
ineffective.
    As a new Member of Congress, I have already learned that the rules 
in Washington are stacked in favor of people who want to spend more 
money. I come from the great state of Indiana--we have a balanced 
budget, triple-A bond rating, and we have not raised taxes because we 
know taxes are not the problem. The problem is our colleagues who 
continue to push for more government spending knowing that our debt is 
over $14 trillion and climbing.
    The U.S. borrows 42 cents of every dollar it spends. When the 
Federal government borrows money, we are passing along a tax increase 
to our children and grandchildren. In fact, I call it a ``birth tax'' 
because every baby born today owes $45,000 as his share of the public's 
debt. Moreover, every taxpayer alone owes $127,000 of the debt.
    Recently, the Government Accountability Office released a report 
entitled ``Opportunities to Reduce Potential Duplication in Government 
Programs, Save Tax Dollars, and Enhance Revenue.'' We have always known 
that waste exists, this report quantifies it. According to the report, 
billions of dollars are being squandered on redundant programs and many 
of these programs are managed by multiple agencies only adding to the 
confusion and waste. In our current economic situation, how can we 
ignore this data?
    I appreciate the first steps the Administration took by identifying 
13 programs to eliminate and 38 more for consolidation. However, this 
does not come close to what needs to be done. In the GAO report alone, 
82 programs are identified as being focused on teacher quality. Can 
anyone honestly tell me that all 82 are necessary and have been proven 
effective? It is time for us to rein in our spending problem, put 
taxpayer dollars to work where they can be most effective, and reduce 
the regulatory burden imposed on states and school districts.
    I refuse to leave the next generation less freedom and a lower 
standard of living--and that is what we continue to do by keeping the 
status quo.
                                 ______
                                 
    [Additional submissions from the GAO follow:]

   Employment and Training Programs That Have Shown Positive Results

    As part of GAO's recent study of multiple employment and training 
programs, we conducted a survey of federal agency officials and asked 
them to identify impact studies that had been completed since 2004 to 
assess program performance with respect to employment and training 
activities.\1\ An impact study assesses the net effect of a program by 
comparing program outcomes with an estimate of what would have happened 
in the absence of the program. This type of study is conducted when 
external factors are known to influence the program outcomes, in order 
to isolate the program's contribution to the achievement of its 
objectives. Of the 8 studies cited by survey respondents, we determined 
that 5 can accurately be described as completed impact studies. These 
studies found that 4 programs had positive impacts on participant 
outcomes.
---------------------------------------------------------------------------
    \1\ GAO, Multiple Employment and Training Programs: Providing 
Information on Colocating Services and Consolidating Administrative 
Structures Could Promote Efficiencies, GAO-11-92 (Washington, D.C.: 
January 13, 2011).
---------------------------------------------------------------------------
1. Workforce Investment Act (WIA) Adult (Labor)
    Study citation: Carolyn J. Heinrich, Peter R. Mueser, and Kenneth 
R. Troske, Workforce Investment Act Nonexperimental Net Impact 
Evaluation, Final Report, a report prepared for the U.S. Department of 
Labor (December 2008).
    Study design and scope: Quasi-experimental design (used a closely 
matched comparison group rather than a randomly assigned control 
group). Examined outcomes for 95,580 WIA Adult participants and 
compared them to outcomes for matched comparison group members selected 
from a pool of nearly 3 million individuals who had similar demographic 
characteristics but either did not receive WIA Adult services or did 
not receive WIA Adult training. Examined the impact of the programs on 
average earnings and employment using 16 quarters (4 years) of wage 
record data from 12 states, starting with the quarter in which the 
participant entered the program (between July 2003 and June 2005). 
Findings are not generalizable.
    Findings: The program had positive impacts on average earnings and 
employment up to 4 years after participant entry. Longer term impacts 
for participants receiving training were greater than for those 
receiving core and intensive services. Impacts were generally larger 
for women than for men. The authors caution that the impact estimates 
are averages, and differences across states were substantial.
2. WIA Dislocated Worker (Labor)
    Study citation: Carolyn J. Heinrich, Peter R. Mueser, and Kenneth 
R. Troske, Workforce Investment Act Nonexperimental Net Impact 
Evaluation, Final Report, a report prepared for the U.S. Department of 
Labor (December 2008).
    Study design and scope: Quasi-experimental design (used a closely 
matched comparison group rather than a randomly assigned control 
group). Examined outcomes for 63,515 WIA Dislocated Worker participants 
and compared them to outcomes for matched comparison group members 
selected from a pool of nearly 3 million individuals who had similar 
demographic characteristics but either did not receive WIA Dislocated 
Worker services or did not receive WIA Dislocated Worker training. 
Examined the impact of the programs on average earnings and employment 
using 16 quarters (4 years) of wage record data from 12 states, 
starting with the quarter in which the participant entered the program 
(between July 2003 and June 2005). Findings are not generalizable.
    Findings: For participants receiving core and intensive services, 
the program had positive impacts on their average earnings and 
employment, although these impacts were smaller than the impacts for 
WIA Adult participants and took several quarters to materialize. 
Impacts were generally more positive for employment than for earnings. 
The authors caution that there was uncertainty about the causes for the 
impacts that they found. They also caution that the impact estimates 
are averages, and differences across states were substantial.
3. National Guard Youth Challenge Program (Defense)
    Study citation: Dan Bloom, Alissa Gardenhire-Crooks and Conrad 
Mandsager, Reengaging High School Dropouts--Early Results of the 
National Guard Youth ChalleNGe Program Evaluation (MDRC, 2009).
    Study design and scope: Experimental design (used a randomly 
assigned control group). Examined outcomes for program participants in 
10 states and compared them to outcomes for youth who applied and were 
eligible to participate in the program but were not invited to 
participate because there were too few slots available. About 3,000 
youth were assigned to either the experimental or the control group in 
2005-2006. About 1,000 youth in each group completed a brief survey 
approximately 9 months after they entered the study (the survey did not 
target all study participants; the response rate among those targeted 
was 85 percent).
    Findings: The program had short-term positive impacts on 
participants' education (high school diploma/GED receipt), employment, 
mental health, and criminal activity (lower arrest rates) in the first 
year of participation. However, since participants had not yet 
completed the program, it is too early to say whether the program will 
have positive, long-term impacts such as increased earnings.
4. Reintegration of Ex-Offenders (Labor)
    Study citation: National Council on Crime and Delinquency, In 
Search of Evidence-Based Practice in Juvenile Corrections: An 
Evaluation of Florida's Avon Park Youth Academy and STREET Smart 
Program, a report prepared for the U.S. Department of Justice and the 
U.S Department of Labor (September 2009).
    Study design and scope: Experimental design (used a randomly 
assigned control group). Examined outcomes for 369 program participants 
and compared them to outcomes for 345 youth assigned to the control 
group. Youth in both groups had similar characteristics including 
criminal history and demographics. Youth were randomly assigned to one 
of these groups between June 2002 and February 2003, and then 
participated in residential programs between June 2002 and May 2005. 
After these youth were released to the community, about 67 percent of 
them participated in a series of post-release interviews over a period 
of several years.
    Findings: The program had short-term positive impacts on 
participants' employment, earnings, and recidivism in the first year 
after release from a juvenile corrections facility, but these impacts 
were not sustained for all participants during the second and third 
years after release. Positive impacts on employment and recidivism were 
sustained for Hispanic youth in the second and third years after 
release.
                                 ______
                                 

       Teacher Quality Programs That Have Shown Positive Results

    Based on our review of outcome and impact evaluations of teacher 
quality programs administered by the Department of Education 
(Education), GAO identified two studies that found positive results for 
two programs: Early Reading First Program and Teacher Quality 
Partnership Grants Program.\1\
---------------------------------------------------------------------------
    \1\ Outcome evaluations assess the extent to which a program 
achieves its outcome-oriented objectives, but may also assess program 
processes to understand how outcomes are produced. Impact evaluations 
use scientific research methods to assess the net effect of a program 
by comparing program outcomes with an estimate of what would have 
happened in the absence of the program.
---------------------------------------------------------------------------
1. Early Reading First Program (Education)
    Study citation: National Evaluation of Early Reading First: Final 
Report to Congress, a report prepared by U.S. Department of Education, 
Decision Information Resources, Inc., Mathematica Policy Research, and 
Center for Improving the Readiness of Children for Learning and 
Education (May 2007).
    Study design and scope: The purpose of this national impact 
evaluation of the Early Reading First (ERF) program to assess the 
impact of ERF funding and program support for preschools on the 
language and literacy preparedness of preschool children. In 
particular, it was designed to measure the effects on children's 
language development and emergent literacy when preschools receive 
funding to adopt scientifically based methods and materials and 
teachers are provided with focused professional development that 
supports the use of these materials and methods. The evaluation sample 
was composed of a treatment group, which consisted of 4-year-olds 
attending preschool in 28 of 30 ERF grantee sites, whereas the 
comparison group consisted of children attending preschool in 37 of the 
67 unfunded applicant sites that had the highest application scores and 
that agreed to participate in the study. The study team randomly 
selected approximately 11 4-year-old students per classroom whose 
parents had provided written consent for participation in the study. 
ERF participants appeared to be more disadvantaged than the national 
average according to a number of demographic factors, including family 
income level, single-parent household status, among other factors. They 
also scored lower than national norms on three standardized 
assessments.
    Findings: The evaluation found that the program had positive, 
statistically significant impacts on several classroom and teacher 
outcomes and one of four child outcomes measured, including the 
following areas:
    <bullet> Classroom environments and teacher practices: classroom 
language environment; book-reading practices; materials and teaching 
practices to support print and letter knowledge and writing, among 
other areas.
    <bullet> Teacher outcomes: number of hours of professional 
development that teachers received and on the use of mentoring as a 
mode of training.
    <bullet> Classroom quality: quality of teacher-child interactions; 
classroom organization; activity planning.
    <bullet> Child outcomes: Children's print and letter knowledge.
    Limitations: The design of this study was based on the assumption 
that the grant application score fully reflects the selection rule 
Education used to award ERF grants. Furthermore, the authors of the 
report noted several limitations of their sub-group analysis that meant 
that they could not draw conclusions about the program's effectiveness 
for the groups considered.\2\
---------------------------------------------------------------------------
    \2\ Examples of sub-groups they analyzed included teachers with and 
without a bachelor's degree; teachers with five or more years of 
teaching experience and teachers with fewer years of experience; 
whether the preschool received Head Start funding; and whether the 
preschool offered full-time or part-time classes.
---------------------------------------------------------------------------
2. Teacher Quality Partnership Grants (Education)
    Study citation: Partnerships for Reform: Changing Teacher 
Preparation Through the Title II HEA Partnership Program (Final 
Report), a report prepared by American Institutes for Research and SRI 
International for U.S. Department of Education (May 2006).
    Study design and scope: The purpose of this outcome evaluation was 
to identify and describe the collaborative activities taking place in 
partnerships under the Title II Partnership Grants Program. It was also 
designed to examine approaches to preparing new and veteran teachers 
and to assess the sustainability of project activities after the grant 
ends. Specifically, the evaluation surveyed nearly 300 representatives 
from 25 grantees of the 1999 cohort of the partnership grants, 
including at least 66 colleges and universities, 28 community colleges, 
179 school districts, and 821 elementary schools in more than 25 
different states. More than 500 principals were surveyed once, during 
the 2002--03 school year. The study also included secondary data 
analyses using publicly available data on school characteristics, 
school-level achievement data, and pass rates on teacher assessments 
reported as part of the Title II HEA reporting requirements. Five 
diverse projects were the subject of case studies that included 
repeated week-long visits.
    Findings: The evaluation found that the program had certain 
positive outcomes, such as enhanced collaboration between colleges/
universities and schools around teacher preparation; a shared focus on 
the accountability concerns of the HEA Title II; and increased 
requirements for teachers entering and exiting teacher preparation 
programs.
    Limitations: The analytic sample for this study had several sources 
for potential bias, including survey- and item-level nonresponse 
(across and within partnerships). Nonresponse bias, which includes 
issues of missing data, nonrespondent bias and the potential for 
selection bias must be considered when interpreting the survey results 
presented in this study. Furthermore, this evaluation could not 
determine with precision the extent to which the partnership program 
alone was responsible for any of the measured outcomes. For example, 
the report authors indicated that some partners had multiple grants and 
projects operating simultaneously, sometimes with shared goals, making 
it difficult to separate the effects of these efforts from those of the 
teacher quality partnerships.
                                 ______
                                 

FEDERAL PROGRAMS THAT SUPPORT TEACHER QUALITY AND ALLOW FUNDS TO BE USED
       FOR ACTIVITIES AIMED AT IMPROVING THE PERFORMANCE OF SCHOOL
                             ADMINISTRATORS
------------------------------------------------------------------------
      CFDA No.                             Program
------------------------------------------------------------------------
            84.010   Title I Grants to Local Educational Agencies
------------------------------------------------------------------------

            84.048   Career and Technical Education--Basic Grants to
                      States
------------------------------------------------------------------------

            84.083   Women's Educational Equity Act Program
------------------------------------------------------------------------

            84.101   Career and Technical Education--Grants to Native
                      Americans and Alaska Natives
------------------------------------------------------------------------

            84.165   Magnet Schools Assistance
------------------------------------------------------------------------

            84.206   Javits Gifted and Talented Students Education Grant
                      Program
------------------------------------------------------------------------

            84.256   Freely Associated States--Education Grant Program
------------------------------------------------------------------------

           84.283   Comprehensive Centers
------------------------------------------------------------------------

           84.299B   Indian Education Professional Development Grants
------------------------------------------------------------------------

           84.336B   Teacher Quality Partnership Grants
------------------------------------------------------------------------

            84.363   School Leadership
------------------------------------------------------------------------

            84.367   Improving Teacher Quality State Grants
------------------------------------------------------------------------

            84.374   Teacher Incentive Fund
------------------------------------------------------------------------

            84.377   School Improvement Grants
------------------------------------------------------------------------
Note: This is a preliminary list based on a review of information
  provided in the Catalog of Federal Domestic Assistance (CFDA) and the
  Department of Education documents. We interpreted the authority for
  these purposes broadly, but did not verify our interpretation with the
  Department of Education. Therefore, the list may be incomplete and
  some of the programs may not be targeted to providing services to
  school administrators or principals.

                                ------                                

    [Letter, dated April 22, 2011, from Secretary Solis 
follows:]
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                ------                                

    [Whereupon, at 11:34 a.m., the Committee was adjourned.]

                                 <all>

</pre></body></html>
